                                                                  Issue Date
                                                                           September 28, 2007
                                                                  Audit Report Number
                                                                           2007-CH-1016




TO:        Robert E. Nelson, Director of Public Housing Hub, 5FPH


FROM:      Heath Wolfe, Regional Inspector General for Audit, 5AGA

SUBJECT: The Plymouth Housing Commission, Plymouth, Michigan, Failed to Adequately
           Administer Its Section 8 Housing Choice Voucher Program

                                    HIGHLIGHTS

 What We Audited and Why

             We audited the Plymouth Housing Commission’s (Commission) Section 8
             Housing Choice Voucher program (program). The audit was part of the activities
             in our annual audit plan. We selected the Commission based upon a risk analysis
             that identified it as having a high-risk program. Our objective was to determine
             whether the Commission administered its program in accordance with the U.S.
             Department of Housing and Urban Development’s (HUD) requirements. This is
             the second of two audit reports on the programs administered by the Commission.

 What We Found

             The Commission’s program administration regarding housing unit conditions, the
             effectiveness of its abatement process, rent reasonableness determinations, zero-
             income households, and procurement of consulting services was inadequate. Of
             the 61 housing units statistically selected for inspection, 42 did not meet HUD’s
             housing quality standards, and 38 had 181 health and safety violations that existed
             at the time of the Commission’s previous inspections. The 38 units had between
             1 and 15 preexisting health and safety violations per unit. Based on our statistical
             sample, we estimate that over the next year, HUD will pay more than $1.4 million
             in housing assistance on units with housing quality standards violations.
           The Commission did not comply with its abatement process. Of the 40
           statistically selected program units that failed an annual housing or quality
           housing standards inspection between October 2006 and April 2007, 13 units with
           emergency health and safety violations were not corrected in a timely manner. It
           also failed to abate the housing assistance for nine units and improperly abated the
           housing assistance payments for eight units.

           The Commission did not properly determine the reasonableness of program rents
           before approving housing assistance contracts for all 66 household files reviewed.
           It also did not adequately determine income for 7 of 25 households that reported
           zero income. Further, the Commission did not follow its own procurement policy
           when it acquired the consulting services of The Schiff Group for the
           administration of its program.

           We informed the Commission’s executive director and the Director of HUD’s
           Detroit Office of Public Housing of minor deficiencies through a memorandum,
           dated September 27, 2007.

What We Recommend

           We recommend that the Director of HUD’s Detroit Office of Public Housing
           require the Commission to reimburse its program from nonfederal funds for the
           improper use of nearly $61,000 in program funds and implement adequate
           procedures and controls to address the findings cited in this audit report. These
           procedures and controls should help ensure that more than $1.4 million in
           program funds is spent on housing units that meet HUD’s requirements. We also
           recommend that the Director restrict the Commission’s ability to administer other
           HUD-funded programs until the Commission substantially improves its program
           administration to ensure compliance with applicable requirements.

           For each recommendation without a management decision, please respond and
           provide status reports in accordance with HUD Handbook 2000.06, REV-3.
           Please furnish us copies of any correspondence issued because of the audit.

Auditee’s Response

           We provided our program review results and supporting schedules to the Director
           of HUD’s Detroit Office of Public Housing and the Commission’s executive
           director during the audit. We also provided our discussion draft audit report to
           the Commission’s executive director, its board president, and HUD’s staff during
           the audit. We held an exit conference with the Commission’s executive director
           on August 27, 2007.
           We asked the executive director to provide comments on our discussion draft
           audit report by August 27, 2007. The executive director provided written
           comments, dated August 21, 2007. The executive director neither agreed nor
           disagreed with the five findings. The complete text of the written comments,



                                            2
along with our evaluation of that response, can be found in appendix B of this
report.




                                 3
                              TABLE OF CONTENTS

Background and Objective                                                              5

Results of Audit
        Finding 1: Controls over Housing Quality Standards Need Improvement           6

        Finding 2: The Commission Did Not Follow Requirements Regarding The
                   Enforcement of Housing Quality Standards                           12

        Finding 3: The Commission’s Rent Reasonableness Procedures Were
                   Inadequate                                                         16

        Finding 4: The Commission’s Zero-Income Households Had Unreported
                   Income                                                             19

        Finding 5: The Commission Failed to Follow Its Procurement Policy Regarding
                   Consulting Services                                                21

Scope and Methodology                                                                 23

Internal Controls                                                                     25

Appendixes
   A.   Schedule of Questioned Costs and Funds to Be Put to Better Use                27
   B.   Auditee Comments and OIG’s Evaluation                                         28
   C.   Federal Requirements and the Commission’s Policies                            31
   D.   Units with Preexisting Health and Safety Violations                           39




                                              4
                       BACKGROUND AND OBJECTIVE

The Plymouth Housing Commission (Commission) was established by the City of Plymouth,
Michigan (City), in November 1963 under the laws of the State of Michigan to provide decent,
safe, and sanitary housing for low-income families under the United States Housing Act of 1937.
The Commission is governed by a five-member board of commissioners (board) appointed by
the city manager to five-year staggered terms. The board’s responsibilities include overseeing
the Commission’s operations, as well as the review and approval of its policies. The board
appoints the Commission’s executive director, who serves as the board’s secretary. The
executive director is responsible for fulfilling the goals and objectives established by the board.

The Commission administers its Section 8 Housing Choice Voucher, Public Housing, and Public
Housing Capital Fund programs. As of July 2007, it also administers the Dearborn Heights and
Ingham County Housing Commissions’ Section 8 Housing Choice Voucher programs. The
Commission ceased administering the South Lyon Housing Commission’s Public Housing
program effective July 1, 2007, and will cease to administer the Ingham County Housing
Commission’s Section 8 Housing Choice Voucher program effective October 1, 2007. It
provides assistance to low- and moderate-income individuals seeking decent, safe, and sanitary
housing by subsidizing rents with owners of existing private housing. As of July 12, 2007, the
Commission had 1,624 program units under contract with annual housing assistance payments
totaling more than $10.5 million in program funds. The Commission also received Housing
Choice Voucher/Family Self-Sufficiency Program Coordinators (Coordinators) funds to pay the
salaries and fringe benefits of its program staff that coordinate its Family Self-Sufficiency
program.

Our objective was to determine whether the Commission administered the Section 8 Housing
Choice Voucher programs (programs) in accordance with the U.S. Department of Housing and
Urban Development’s (HUD) requirements. This included determining whether (1) the
Commission’s inspections were sufficient to detect housing quality standards violations and
provide decent, safe, and sanitary housing to its residents; (2) the Commission complied with its
abatement procedures; (3) the Commission’s procedures ensured that program rents were
reasonable; (4) the Commission appropriately verified whether reported zero-income households
had income; and (5) the Commission followed its requirements regarding the procurement of
consulting services. This is the second audit of the Commission’s administered programs by
HUD’s Office of Inspector General (OIG). The first audit report (report number 2007-CH-1012,
issued on August 3, 2007) included four findings. The four findings are not repeated in this audit
report.




                                                 5
                                RESULTS OF AUDIT

Finding 1: Controls over Housing Quality Standards Need Improvement
The Commission did not adequately inspect program units in accordance with HUD’s housing
quality standards. Of the 61 program units statistically selected for inspection, 42 did not meet
minimum housing quality standards, and 38 had material violations that existed before the
Commission’s previous inspections. The violations occurred because the Commission lacked
adequate procedures and controls to ensure that housing units met HUD’s housing quality
standards. As a result, nearly $36,000 in program funds was spent on units that were not decent,
safe, and sanitary. We estimate that over the next year, the Commission will pay more than $1.4
million in housing assistance on units with housing quality standards violations.


 HUD’s Housing Quality
 Standards Not Met

               The Commission contracted with Shouldice Home Inspections and Parkside
               Property Management to perform housing quality standards inspections.
               Shouldice Home Inspections performed housing quality standards inspections for
               the Ingham County Housing Commission’s program units, and Parkside Property
               Management performed inspections for the Commission’s and the Dearborn
               Heights Housing Commission’s program units. The Commission also contracted
               with Pieniak Housing Services to perform quality control inspections of it’s and
               the Dearborn Heights Housing Commission’s units. We determined that the
               Ingham County Housing Commission’s program units generally met HUD’s
               housing quality standards. Therefore, we limited our inspections to the
               Commission’s and the Dearborn Heights Housing Commission’s program units.

               From the 429 program units that passed the inspections performed by Parkside
               Property Management between December 2006 and March 2007, we statistically
               selected 61 units for inspection by using the Defense Contract Audit Agency’s
               EZ-Quant Statistical Sampling software. The 61 units were inspected to
               determine whether the Commission ensured that the programs’ units met HUD’s
               housing quality standards. Our appraiser inspected the 61 units between March
               19 and March 30, 2007.

               Of the 61 units inspected, 42 (69 percent) had a total of 360 housing quality
               standards violations. In addition, 38 units were considered to be in material
               noncompliance since they had health and safety violations that predated the
               Commission’s previous inspections. Of the 360 violations, 14 units had 20
               violations that were identified by the Commission during its previous inspections
               and were shown on the Commission’s inspection reports. The following table
               categorizes the 360 housing quality standards violations in the 42 units.




                                                6
                                                                    Number of
                              Category of violations                violations
                        Electrical                                      60
                        Windows                                         45
                        Interior walls                                  41
                        Smoke detectors                                 41
                        Exterior surfaces                               26
                        Floor                                           24
                        Security                                        21
                        Lead-based paint                                13
                        Stove                                           11
                        Stairs, rails, and porches                      11
                        Ceiling                                         9
                        Water heater                                    9
                        Heating equipment                               9
                        Tub/shower                                      8
                        Roofs/gutters                                   5
                        Fire exit                                       4
                        Sink or fixed wash basin                        4
                        Foundation                                      3
                        Space for storage and preparation of food       3
                        Toilet                                          3
                        Sewer connection                                2
                        Refrigerator                                    2
                        Interior air quality                            2
                        Ventilation                                     1
                        Garbage and debris                              1
                        Access to unit                                  1
                        Infestation                                     1
                                            Total                      360

             We provided our inspection results to the Director of HUD’s Detroit Office of
             Public Housing on June 29, 2007, and the Commission’s executive director on
             June 8, 2007.

Electrical Violations

             Sixty electrical violations were present in 28 of the Commission’s units inspected.
             The following items are examples of electrical violations listed in the table:
             outlets with open grounds, no covers on junction boxes, missing breaker on
             electrical panel, ground fault circuit interrupters not tripping, electrical meters not
             secured to building exterior, and exposed electrical wires. The following pictures
             are examples of the electrical-related violations.




                                                   7
 Unit #187: Missing
 breaker on electrical
 panel cover in
 basement.




Unit # 5535: Unsecured
cover on electric meter box
and exposed electrical
contacts.




 Window Violations

                 Forty-five window violations were present in 22 of the Commission’s program
                 units inspected. The following items are examples of window violations listed in
                 the table: window locks not working properly, windows that do not stay up, drafty
                 windows, and cracked windowpanes. The following picture is an example of the
                 window-related violations identified.




                                                 8
Unit #6857: Broken glass
panes on rear porch window
that posed a cutting hazard.




  Interior Wall Violations

                  Forty-one interior wall-related violations were present in 24 of the Commission’s
                  program units inspected. The following items are examples of interior wall-
                  related violations listed in the table: missing, inoperable, or unstable handrails or
                  guardrails for stairways; peeling paint on walls; nails protruding from walls; and
                  loose shower door frame. The following pictures are examples of interior wall-
                  related violations identified.

 Unit # 6857: Stairway to
 second floor had no
 handrail. Disabled
 household members
 resided in this unit.




                                                    9
Unit # 6827: Nails
protruding through
garage wall, posing a
cutting hazard.




  Adequate Procedures and
  Controls Lacking

                  The Commission lacked adequate procedures and controls to ensure that program
                  units met HUD’s requirements. It also failed to exercise proper supervision and
                  oversight of its program unit and quality control inspections performed by its
                  contractors, Parkside Property Management and Pieniak Housing Services,
                  respectively. When we observed the quality control inspections performed by
                  Pieniak Housing Services, it did not evaluate all electrical outlets to determine
                  whether they were working properly or grounded to avoid an electrical hazard.
                  Additionally, Pieniak Housing Services did not determine during its quality
                  control inspections whether violations existed at the time of prior inspections,
                  which would determine whether the previous inspectors failed to identify the
                  violations.

                  Also, the Commission did not consistently communicate the results of the quality
                  control inspections to Parkside Property Management. Both contractors stated
                  that they were not aware of the Commission’s program administrative plan;
                  however, in their contracts, they were required to perform their housing quality
                  standards inspections in accordance with HUD’s requirements and the
                  Commission’s program administrative plan.

  Conclusion


                  The Commission’s and the Dearborn Heights Housing Commission’s households
                  were subjected to health and safety violations, and the Commission did not
                  properly use program funds when it failed to ensure that units complied with
                  HUD’s housing quality standards. In accordance with 24 CFR [Code of Federal
                  Regulations] 982.152(d), HUD is permitted to offset program administrative fees



                                                  10
          paid to a housing authority if it fails to enforce HUD’s housing quality standards.
          The Commission disbursed $35,918 in housing assistance payments for the 38
          units that materially failed to meet HUD’s housing quality standards and received
          $2,619 in program administrative fees.

          If the Commission does not implement adequate procedures and controls over its
          unit inspections to ensure compliance with HUD’s housing quality standards, we
          estimate that more than $1.4 million in future housing assistance payments will be
          spent for units that are not decent, safe, and sanitary over the next year. Our
          methodology for this estimate is explained in the Scope and Methodology section
          of this audit report.

Recommendations

        We recommend that the Director of HUD’s Detroit Office of Public Housing
        require the Commission to

          1A.     Certify, along with the owners of the 42 program units cited in this
                  finding, that the applicable housing quality standards violations were
                  repaired.

          1B.     Reimburse its program $38,537 from nonfederal funds ($35,918 for
                  housing assistance payments and $2,619 in associated administrative fees)
                  for the 38 units that materially failed to meet HUD’s housing quality
                  standards.

          1C.     Implement adequate procedures and controls to ensure that all units meet
                  HUD’s housing quality standards to prevent $1,467,192 in program funds
                  from being spent on units that are not in compliance with the standards
                  over the next year.

          1D.     Implement adequate procedures and controls to ensure that its quality
                  control inspections are conducted and documented and that feedback is
                  provided to inspectors regarding recurring inspection deficiencies.

          We also recommend that the director of HUD’s Detroit Office of Public Housing

          1E.     Restrict the Commission’s ability to administer other HUD funded programs
                  until the Commission substantially improves its program administration to
                  ensure compliance with applicable requirements based upon the findings
                  cited in this audit report and the first audit report (see OIG audit report
                  #2007-CH-1012, issued August 3, 2007), absent sufficient documentation
                  that may be provided by the Commission.




                                           11
Finding 2: The Commission Did Not Follow Requirements Regarding
            The Enforcement of Housing Quality Standards
The Commission failed to comply with HUD’s requirements and its program administrative plan
regarding the enforcement of housing quality standards. Of the 40 program units that failed the
Commission’s housing quality standards inspections between October 2006 and April 2007, 13
housing units with emergency health and safety violations that needed to be corrected within 24
hours were not verified in a timely manner. It also failed to abate the housing assistance for nine
program units and eight units were abated improperly. This noncompliance occurred because the
Commission failed to adequately monitor and provide oversight of its contractor, Parkside
Property Management. As a result, the Commission overpaid more than $2,900 and underpaid
more than $1,400 in housing assistance for units that were inappropriately abated or not abated.
Further, households were subjected to units that were not decent, safe, and sanitary.


 Units with 24-Hour Violations
 Were Not Verified in a Timely
 Manner

               We statistically selected 40 household files using the Defense Contract Audit
               Agency’s EZ-Quant Statistical Sampling software from the 844 program units
               that failed the Commission’s housing quality standards inspections between
               October 2006 and April 2007. The 40 household files were reviewed to
               determine whether the Commission properly enforced HUD’s housing quality
               standards and its own program administrative plan after the units failed
               inspection. Our review was limited to the information maintained by the
               Commission in its households’ files. The methodology for our statistical selection
               is explained in the Scope and Methodology section of this audit report.

               The Commission did not reinspect program units or verify that units with
               emergency health and safety violations were corrected in a timely manner.
               According to section 12.2 of the Commission’s program administrative plan, the
               Commission will not make any housing assistance payment for a dwelling unit
               that fails to meet HUD’s housing quality standards unless the owner corrects the
               violation within the period specified by the Commission and the Commission
               verifies the correction. If the violation is an emergency health and safety
               violation, the owner must correct the violation within 24 hours. Of the 40
               household files reviewed, 13 program units were identified as having emergency
               health and safety violations that needed to be corrected within 24 hours according
               to the Commission’s program administrative plan. However, the Commission
               could not provide documentation to verify that corrections were made within the
               24-hour timeframe. The following are examples of violations that needed to be
               corrected within 24 hours and verified by the Commission:




                                                12
             ¾ Household 5003 had a basement that was flooded with sewage; however,
               the violation was not verified as having been corrected until five days after
               the 24-hour requirement, and was reinspected 21 days later.

             ¾ Household 5567 had multiple violations that needed to be corrected within
               24 hours, such as no smoke detectors, nonfunctioning window locks, and
               no lock on a bedroom window. These violations were not verified as
               having been corrected by the Commission until 27 days after the 24-hour
               requirement.

          Further, during the housing quality standards unit inspections performed by our
          appraiser, we identified 42 housing units that failed to meet HUD’s housing
          quality standards (see finding 1). Of the 42 units, 26 had emergency health and
          safety violations that required correction within 24 hours. We notified the
          Commission of the units that had 24-hour emergency violations within one day of
          our appraiser’s inspections. We informed the Commission that these emergency
          violations needed to be corrected within 24 hours and that it should notify the
          applicable owners. We asked the Commission to provide us and HUD with
          evidence that the violations were either corrected or that abatement action was
          taken. Of the 26 units, the Commission failed to reinspect or verify the
          corrections within the required 24-hour timeframe for 16. The Commission took
          an average of 32 days to verify that the necessary repairs were made after the
          owners were notified of the violations, with a maximum of 74 days elapsing
          between the owner’s notifications and the Commission’s verifications.

Abatement Procedures Were
Not Followed

          The Commission did not abate program units in accordance with its abatement
          procedures. According to section 12.2 of the Commission’s program
          administrative plan, when a unit fails to meet housing quality standards and the
          owner has been given an opportunity to correct the deficiencies, but has failed to
          do so within the required timeframe, the rent for the dwelling unit will be abated
          as of the first day of the next month.

          Of the 40 household files reviewed,

             •   The housing assistance payments for nine households were overpaid
                 $2,761 because the Commission failed to provide documentation that
                 corrections were made within 24-hours when emergency violations were
                 identified;
             •   The housing assistance payments for one household was overpaid $165
                 because the Commission failed to abate the unit for the proper timeframe
                 after the unit failed the reinspection; and
             •   The housing assistance payments for seven households were underpaid
                 $1,448 because the Commission failed to abate the units for the
                 appropriate timeframe.


                                           13
Weaknesses in Procedures and
Controls

             The weaknesses occurred because the Commission failed to adequately monitor
             and provide oversight of Parkside Property Management. The Commission did
             not ensure its contractor identified the violations that needed to be corrected
             within 24 hours until after our audit began although this requirement was clearly
             outlined in the Commission’s contract with Parkside Property Management and
             the Commission’s program administrative plan. Since the units with emergency
             health and safety violations were not identified, the Commission was unable to
             verify whether corrections were made within the required timeframe.

             The Commission also did not follow its abatement procedures outlined in its
             program administrative plan. The plan requires the Commission to abate the unit
             the first day of the next month. However, it abated housing assistance payments
             immediately following the second failed inspection and until the unit was
             determined to be in compliance with HUD’s housing quality standards. HUD
             identified this issue in its 2006 tier 1 confirmatory review. Also, HUD identified
             that the Commission did not track housing quality standards inspections according
             to failed item(s) or category. In performing our audit, we found that this issue
             still existed. Additionally, the Commission had not monitored whether
             inspections, extensions, or abatements were completed properly since the Section
             8 program administrator stopped maintaining an inspection enforcement log in
             October 2006. Due to the Commission’s failure to consistently maintain a
             tracking method for its housing quality standards unit inspections, it cannot
             efficiently and effectively perform quality control reviews to ensure that it is
             enforcing HUD’s housing quality standards when a unit fails inspection.

Conclusion

             The Commission improperly used its program funds when it failed to comply with
             HUD’s regulations and its administrative plan. As a result, the Commission could
             not support $2,761 and inappropriately disbursed $165 in housing assistance
             payments for units that should have been abated. Further, it underpaid $1,448 in
             housing assistance because it did not follow its administrative plan regarding the
             timeframe for abatements. Also, the households were subjected to units that were
             not decent, safe, and sanitary.

             In accordance with 24 CFR [Code of Federal Regulations] 982.152(d), HUD may
             reduce or offset any administrative fee to public housing authorities in the amount
             determined by HUD, if the authorities fail to perform their administrative
             responsibilities correctly or adequately under the program. The Commission
             received $189 in program administrative fees for the 10 households cited in this
             finding whose housing assistance was overpaid due to the failure to abide by its
             abatement and inspection procedures.




                                             14
Recommendations

          We recommend that the Director of HUD’s Detroit Office of Public Housing
          require the Commission to

          2A.     Provide supporting documentation or reimburse its program $2,939
                  ($2,761 in housing assistance payments plus $178 in related administrative
                  fees) from nonfederal funds for the unsupported housing assistance
                  payments and related administrative fees for the nine households cited in
                  this finding.

          2B.     Reimburse its program $176 ($165 in housing assistance payments plus
                  $11 in related administrative fees) from nonfederal funds for the improper
                  housing assistance payments and related administrative fees for the one
                  household cited in this finding.

          2C.     Reimburse the owners of the seven units cited in this finding $1,448 in
                  housing assistance that was inappropriately abated.

          2D.     Implement adequate procedures and controls to accurately track unit
                  inspection results so that housing quality standards enforcement action can
                  be efficiently and effectively taken.

          2E.     Implement adequate procedures and controls to ensure that the
                  Commission’s practice of enforcing housing quality standards meets
                  HUD’s requirements and its program administrative plan.




                                           15
Finding 3: The Commission’s Rent Reasonableness Procedures Were
                           Inadequate
The Commission did not determine the reasonableness of its program rents in accordance with its
program administrative plan or HUD’s requirements. It also did not consistently determine the
reasonableness of program rents before housing assistance payment contracts were approved.
This condition occurred because the Commission lacked adequate procedures and controls over
its rent reasonableness process. As a result, HUD and the Commission lack assurance that
contract rents were reasonable.


 The Commission Did Not
 Adequately Determine Rent
 Reasonableness

              From the Commission’s 221 households that were either new admissions or
              transferred to a new unit between October 2006 and April 2007, we statistically
              selected 66 households’ files to determine whether the Commission properly
              determined the reasonableness of program rents. Our review was limited to the
              information maintained by the Commission in its households’ files. For the 66
              household files reviewed, the Commission did not determine the reasonableness
              of program rents in accordance with its program administrative plan or HUD’s
              requirements.

              Of the 66 households’ files reviewed,

                  ¾ 47 had utility allowance calculations for comparable units that were
                    incorrect or had no support for the calculations,
                  ¾ 39 lacked HUD-required information on utilities to properly calculate the
                    gross rent of comparable units,
                  ¾ 24 had incorrect contract rents for comparable units due to differing
                    amenities between the assisted units and the comparable units and/or
                    clerical errors,
                  ¾ 15 were completed after the housing assistance payments contract
                    execution,
                  ¾ 15 did not have rent reasonableness certifications, and
                  ¾ Six units had a deficient methodology for determining rent reasonableness.

 The Commission’s Procedures
 and Controls Had Weaknesses

              The weaknesses in determining the reasonableness of program rents occurred
              because the Commission lacked adequate procedures and controls over its rent
              reasonableness process. In September 2006, HUD performed a tier 1 section
              eight management assessment program confirmatory review of the Commission’s



                                              16
             rent reasonableness procedures. The review indicated that there was no
             adjustment to reflect location, building type, or utility configuration, all of which
             could vary enormously across the four-county area served by the Commission.
             For example, the Commission’s specialist would apply the same utility allowance
             configuration to the comparable units as was applicable to the proposed unit in
             determining comparability.

             During the course of HUD’s review, the Commission indicated that it had
             developed a new rent reasonableness system. HUD’s review indicated that the
             Commission needed to continue to work, through its corrective action plan, to
             determine whether the new system met HUD’s regulations. Although the
             Commission implemented a new database and procedures after HUD’s review, its
             staff immediately discontinued using the database and started using another
             method to determine rent reasonableness. We determined that the Commission’s
             rent reasonableness system did not provide a gross rent to gross rent comparison
             to determine a comparable unassisted unit rent and the Commission never sought
             approval from HUD to determine whether either methodology complied with
             HUD’s requirements. Therefore, the Commission failed to make adequate
             improvements to its rent reasonableness procedures to address HUD’s findings.

             In May 2007, the Commission hired a contractor, The Nelrod Company, to
             implement a new rent reasonableness system.

Conclusion

             The Commission failed to comply with HUD’s regulations and its program
             administrative plan when determining the rent reasonableness for program units.
             As a result, HUD and the Commission lack assurance that the contract rents were
             reasonable.

             In accordance with 24 CFR [Code of Federal Regulations] 982.152(d), HUD may
             reduce or offset any administrative fee to public housing authorities in the amount
             determined by HUD, if the authorities fail to perform their administrative
             responsibilities correctly or adequately under the program. The Commission
             received $12,875 in program administrative fees related to the 66 households for
             which contract rents were inadequately determined to be reasonable.

Recommendations

             We recommend that the Director of HUD’s Detroit Office of Public Housing
             require the Commission to

             3A.    Reimburse its program $12,875 from nonfederal funds for the
                    administrative fees related to the 66 households cited in this finding.




                                              17
3B.   Ensure that the rent reasonableness system follows HUD regulations and
      the Commission’s program administrative plan for verifying the
      reasonableness of contract rents.

3C.   Implement adequate procedures and controls over its rent reasonableness
      process to include but not limited to verifying the reasonableness of rents
      before executing housing assistance payments contracts with owners and
      maintaining complete and accurate documentation.




                               18
Finding 4: The Commission’s Zero-Income Households Had
                       Unreported Income
The Commission did not effectively use HUD’s Enterprise Income Verification system (system)
or other third-party verification methods to determine that reported zero-income households had
unreported income. Of the 25 households reviewed, seven had unreported income that affected
their housing assistance payments. This condition occurred because the Commission lacked
adequate procedures and controls to perform appropriate income verification. As a result, it
unnecessarily paid housing assistance and utility allowance payments totaling more than $9,000
for households that were required to meet their rental obligations.


 Households Had Unreported
 Income

              We reviewed all 25 households that reported zero income as of October 2006 to
              determine whether they had income for the period January 1, 2005, through
              December 31, 2006. Of the 25 households reviewed, seven had income not
              reported to the Commission but income information was available in the
              household files. Therefore, the Commission provided excessive housing
              assistance and utility allowance payments for households. Our review was
              limited to the information maintained in the household files and HUD’s system.

              The following are examples of households with unreported income:

                  ¾ Household 6237 had income, according to HUD’s system, totaling
                    $23,148. Since the household had income, the Commission overpaid
                    $1,976 in housing assistance and $90 in utility allowance. The total
                    overpayment for this household was $2,066 ($1,976 plus $90) from
                    September to December 2006. The household file contained information
                    obtained from HUD’s system during August 2006 that indicated a member
                    of the household was hired in July 2006. However, the Commission failed
                    to perform proper third-party verification of this potential income source.

                  ¾ Household 3432 had income, according the HUD’s system, totaling
                    $34,184. Since the household had income, the Commission overpaid
                    $3,212 in housing assistance and $204 in utility allowance. The
                    overpayment for the household was $3,416 ($3,212 plus $204) from
                    August to November 2005. The household file included an employment
                    verification form dated January 2006. However, this third-party
                    verification indicated that the tenant began employment in June 2005.

              According to HUD’s Public and Indian Housing Notice 2005-9, as a possible way
              to reduce costs, program households can be required to report all increases in
              income between reexaminations, and public housing authorities can conduct more
              frequent interim income reviews for families reporting no income. According to



                                              19
           the Commission’s recertification policy and its administrative policy, households
           claiming zero income will have their income status verified every 30 days.

The Commission Lacked
Adequate Procedures and
Controls

           The overpayment of $8,594 in housing assistance and $669 in utility allowances
           to households that reported zero income but had income occurred because the
           Commission lacked adequate procedures and controls for performing appropriate
           income verification. The Commission needs to make full use of HUD’s system or
           perform other third-party income verification for all households at the time of
           examinations.

           Further, the Commission did not ensure that its staff took appropriate steps to
           determine whether households reporting zero income had unreported income.
           Periodic quality control reviews are an important step in ensuring that the
           Commission’s housing assistance and utility allowance payments are accurate.

           As a result of the Commission’s failure to properly verify household income for
           its zero-income households, HUD paid $9,263 ($8,594 plus $669) in housing
           assistance and utility allowances for households that were required to meet their
           rental obligations.

Recommendations


           We recommend that the Director of HUD’s Detroit Office of Public Housing
           require the Commission to

           4A.    Pursue collection from the applicable households or reimburse its program
                  $9,263 ($8,594 in housing assistance plus $669 in utility allowances) from
                  nonfederal funds for the overpayment of housing assistance and utility
                  allowances cited in this finding.

           4B.    Implement adequate controls and procedures to ensure that its households
                  that report zero income do not have income that would result in an
                  overpayment of housing and utility assistance.




                                           20
Finding 5: The Commission Failed to Follow Its Procurement Policy
                  Regarding Consulting Services
The Commission did not follow its procurement policy when it obtained The Schiff Group to
provide consulting services for its program. This noncompliance occurred because the
Commission lacked adequate procedures and controls to ensure that its procurement policy was
followed and did not have an adequate contract administration system. As a result, the
Commission risked expending program funds on unreasonably priced consulting services and
may have limited the number of contractors and cost options from which to choose.


 The Commission Did Not
 Follow Its Procurement Policy

              In September 2006, the Commission obtained the services of The Schiff Group to
              provide consulting services regarding the administration of its program. The
              consulting services included a report on:

                  ¾ Findings of the household files reviewed and any recommendations.
                  ¾ Status of the section eight management assessment program review and
                    any recommendations.
                  ¾ Any recommendations regarding program management.
                  ¾ Recommendations on the organizational structure of the Commission’s
                    program staff, to include recommended caseload size and management
                    functions.
                  ¾ Findings of the Family Self Sufficiency Program review and
                    recommendations.
                  ¾ Recommendations on a quality assurance program.
                  ¾ Recommendations on training needs.

                  We reviewed the Commission’s procurement procedures for obtaining the
                  services of The Schiff Group to determine whether the Commission followed
                  its procurement procedures. The Commission lacked documentation to show
                  that

              • An independent cost estimate was performed before issuing a request for
                proposal.
              • A mechanism for fairly and thoroughly evaluating the technical and price
                proposals was in place before the solicitation was issued.
              • The bidders solicited were on the Commission’s prequalifed bidders list.
              • A cost analysis was performed to evaluate the reasonableness of bid proposals
                submitted.
              • The Schiff Group performed the services as stated in the bid proposal, except
                for a review of the Family Self-Sufficiency Program.




                                             21
             Additionally, the Commission did not ensure that it consistently complied with its
             procurement policy when it did not: (1) give public notice of the procurement; (2)
             require The Schiff Group to provide a cost breakdown showing projected costs for
             the contract consulting services; and (3) execute a contract with The Schiff Group
             that contained the necessary information and provisions as detailed in its
             procurement policy.

             The Commission indicated that the services under contract with The Schiff Group
             have been ongoing since the contract execution in September 2006. The
             Commission further indicated that the contract will be amended to include
             additional services.

Conclusion


             The noncompliance occurred because the Commission failed to adhere to the
             procedures outlined in its procurement policy. The Commission’s executive
             director did not assume the responsibilities for managing the procurement
             process, and the Commission did not maintain a contract administration system
             designed to ensure that The Schiff Group performed in accordance with its
             contract as required by the Commission’s procurement policy.

             As a result, the Commission may have expended program funds on unreasonably
             priced consulting services. Also, it potentially limited the number of contractors
             and cost options from which to choose for the consulting services.

Recommendations

             We recommend that the Director of HUD’s Detroit Office of Public Housing
             require the Commission to

             5A.    Implement adequate procedures and controls to ensure that it complies
                    with its procurement policy when contracting for consulting services.

             5B.    Implement a contract administration system to ensure that contractors
                    perform in accordance with their contracts as required by the
                    Commission’s procurement policy.




                                             22
                         SCOPE AND METHODOLOGY

To accomplish our objective, we reviewed

            •   Applicable laws and regulations; the Commission’s program administrative plan,
                effective March 2006; HUD’s program requirements at 24 CFR [Code of Federal
                Regulations] Parts 5 and 982; and HUD’s Housing Choice Voucher Guidebook
                7420.10.

            •   The Commission’s accounting records, annual audited financial statements for 2006,
                general ledgers, bank statements and cancelled checks, program household files,
                computerized databases, board meeting minutes for 2005 and 2006, organizational
                chart, service agreements, and program annual contributions contract.

            •   HUD’s reports and files for the Commission.

We also interviewed the Commission’s employees, HUD staff, and program households.

Finding 1

We statistically selected 61 of the Commission’s program units to inspect using the Defense
Contract Audit Agency’s EZ-Quant Statistical Sampling software from the 429 units that passed
inspection by the Commission from December 2006 through March 2007. The 61 units were
selected to determine whether the Commission’s program units met HUD’s housing quality
standards. Our sampling criteria used a 90 percent confidence level, 50 percent estimated error
rate, and precision of plus or minus 10 percent.

Our sampling results determined that 38 of 61 units (62.3 percent) materially failed to meet
HUD’s housing quality standards. Materially failed units were those units with emergency
health and safety violations that preceded the Commission’s previous inspections.

The Commission’s July 2007 household listing showed that the average monthly housing
assistance payment was $541. Projecting our sampling results of the 38 units that materially
failed to meet HUD’s housing quality standards to the population indicates that 226 units or
52.84 percent of the population contains the attributes tested (would materially fail to meet
HUD’s housing quality standards). The sampling error was plus or minus 9.45 percent. In other
words, we are 90 percent confident that the frequency of occurrence of the attributes tested lies
between 52.84 and 71.75 percent of the population. This equates to an occurrence of between
226 and 307 units of the 429 units in the population.

   ¾ The lower limit is 52.84 percent times 429 units = 226 units that materially failed to meet
     HUD’s housing quality standards.
   ¾ The point estimate is 62.30 percent times 429 units = 268 units that materially failed to
     meet HUD’s housing quality standards.
   ¾ The upper limit is 71.75 percent times 429 units = 307 units that materially failed to meet
     HUD’s housing quality standards.



                                                23
Using the lower limit of the estimate of the number of units and the average housing assistance
payment, we estimate that the Commission will annually spend $1,467,192 (226 units times $541
average payment times 12) for units that materially fail to meet HUD’s housing quality
standards. This estimate is presented solely to demonstrate the annual amount of program funds
that will be correctly paid over the next year on decent, safe, and sanitary housing if the
Commission implements our recommendation. While these benefits would recur indefinitely,
we were conservative in our approach and only included the initial year in our estimate. We also
considered that the Commission’s contractor did not identify many of the preexisting violations
during its most recent inspections.

Finding 2

We statistically selected 48 of the program households’ files using the Defense Contract Audit
Agency’s EZ-Quant Statistical Sampling software from the 844 program units that failed the
Commission’s housing quality standards unit inspection between October 2006 and April 2007.
The 48 household files were reviewed to determine whether the Commission properly enforced
HUD’s housing quality standards and its own program administrative plan after the units failed
inspection. Our sampling criteria used a 90 percent confidence level, 25 percent estimated error
rate, and precision of plus or minus 10 percent. Our sample was reduced to 40 household files
because the initial inspection for eight of the households in our sample was performed before
October 2006.

Finding 3

We statistically selected 66 of the program households’ files using ACL Services Limited
software from the 221 households that were either new admissions or transferred to a new unit
within the Commission’s program between October 1, 2006, and April 30, 2007. The 66
households were selected to determine whether the Commission properly determined the rent
reasonableness of the unit in accordance with HUD’s and the Commission’s requirements before
executing a housing assistance payments contract. Our sampling criteria used a 90 percent
confidence level.

We performed our onsite audit work from March through July 2007 at the Commission’s
administrative offices, located at 1160 Sheridan, Plymouth, Michigan. The audit covered the period
January 1, 2005, through September 30, 2006, and was expanded as determined necessary.

We performed our audit in accordance with generally accepted government auditing standards.




                                               24
                             INTERNAL CONTROLS

Internal control is an integral component of an organization’s management that provides
reasonable assurance that the following objectives are being achieved:

   •   Effectiveness and efficiency of operations,
   •   Reliability of financial reporting,
   •   Compliance with applicable laws and regulations, and
   •   Safeguarding resources.

Internal controls relate to management’s plans, methods, and procedures used to meet its
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance.



 Relevant Internal Controls

              We determined the following internal controls were relevant to our objective:

              •       Program operations – Policies and procedures that management has
                      implemented to reasonably ensure that a program meets its objectives.

              •       Validity and reliability of data – Policies and procedures that management
                      has implemented to reasonably ensure that valid and reliable data are
                      obtained, maintained, and fairly disclosed in reports.

              •       Compliance with laws and regulations – Policies and procedures that
                      management has implemented to reasonably ensure that resource use is
                      consistent with laws and regulations.

              •       Safeguarding resources – Policies and procedures that management has
                      implemented to reasonably ensure that resources are safeguarded against
                      waste, loss, and misuse.

              We assessed the relevant controls identified above.

              A significant weakness exists if management controls do not provide reasonable
              assurance that the process for planning, organizing, directing, and controlling
              program operations will meet the organization’s objectives.




                                               25
Significant Weakness

           Based on our review, we believe the following item is a significant weakness:

           •   The Commission lacked adequate procedures and controls to ensure
               compliance with HUD’s requirements and/or its program administrative plan
               regarding unit inspections, enforcement of housing quality standards, rent
               reasonableness, and reported zero-income households that had income (see
               findings 1, 2, 3, and 4).




                                           26
                                    APPENDIXES

Appendix A

               SCHEDULE OF QUESTIONED COSTS
              AND FUNDS TO BE PUT TO BETTER USE

                                                                      Funds to be put
         Recommendation
                                                                      to better use 3/
             number             Ineligible 1/        Unsupported 2/
               1B                     $38,537
               1C                                                          $1,467,192
               2A                                            $2,939
               2B                         176
               2C                                                               1,448
               3A                     12,875
               4A                      9,263
              Totals                 $60,851                 $2,939        $1,468,640

1/   Ineligible costs are costs charged to a HUD-financed or HUD-insured program or activity
     that the auditor believes are not allowable by law; contract; or federal, state, or local
     policies or regulations.

2/   Unsupported costs are those costs charged to a HUD-financed or HUD-insured program
     or activity when we cannot determine eligibility at the time of audit. Unsupported costs
     require a decision by HUD program officials. This decision, in addition to obtaining
     supporting documentation, might involve a legal interpretation or clarification of
     departmental policies and procedures.

3/   Recommendations that funds be put to better use are estimates of amounts that could be
     used more efficiently if an OIG recommendation is implemented. This includes
     reductions in outlays, deobligation of funds, withdrawal of interest subsidy costs not
     incurred by implementing recommended improvements, avoidance of unnecessary
     expenditures noted in preaward reviews, and any other savings which are specifically
     identified. In these instances, if the Commission implements our recommendation, it will
     cease to incur program costs for units that are not decent, safe, and sanitary and, instead,
     will expend those funds in accordance with HUD’s requirements. Once the Commission
     successfully improves its controls, this will be a recurring benefit. Our estimate reflects
     only the initial year of this benefit.




                                                27
Appendix B

        AUDITEE COMMENTS AND OIG’s EVALUATION

Ref to OIG Evaluation   Auditee Comments




Comment 1



Comment 1




                         28
        AUDITEE COMMENTS AND OIG’s EVALUATION

Ref to OIG Evaluation   Auditee Comments




Comment 1



Comment 1


Comment 1


Comment 2




                         29
                        OIG’s Evaluation of Auditee Comments

Comment 1   The Commission should provide its review results to HUD’s Detroit Office of
            Public Housing, not OIG.

Comment 2   The recommendation was based solely on the findings identified is this audit
            report and the first audit report (see OIG audit report #2007-CH-1012, issued
            August 3, 2007).




                                            30
Appendix C

     FEDERAL REQUIREMENTS AND THE COMMISSION’S
                     POLICIES

Finding 1
HUD’s regulations at 24 CFR [Code of Federal Regulations] 982.152(d) state that HUD may
reduce or offset any administrative fee to a public housing authority in the amount determined by
HUD, if the authority fails to perform its administrative responsibilities correctly or adequately
under the program, such as not enforcing HUD’s housing quality standards.

HUD’s regulations at 24 CFR [Code of Federal Regulations] 982.305(a) state that the public
housing authority may not give approval for the family of the assisted tenancy or execute a
housing assistance contract until the authority has determined that the following meet program
requirements: (1) the unit is eligible, and (2) the unit has been inspected by the authority and
passes HUD’s housing quality standards.

HUD’s regulations at 24 CFR [Code of Federal Regulations] 982.401 require that all program
housing meet HUD’s housing quality standards performance requirements, both at
commencement of assisted occupancy and throughout the tenancy.

HUD’s regulations at 24 CFR [Code of Federal Regulations] 982.404 require owners of program
units to maintain the units in accordance with HUD’s housing quality standards. If the owner
fails to maintain the dwelling unit in accordance with HUD’s housing quality standards, the
authority must take prompt and vigorous action to enforce the owner’s obligations. The
authority’s remedies for such breach of the housing quality standards include termination,
suspension, or reduction in housing assistance payments and termination of the housing
assistance payments contract. The authority must not make any housing assistance payments for
a dwelling unit that fails to meet the housing quality standards unless the owner corrects the
defect within the period specified by the authority and the authority verifies the correction. If a
defect is life threatening, the owner must correct the defect within 24 hours. For other defects,
the owner must correct them within 30 calendar days.

HUD’s regulations at 24 CFR [Code of Federal Regulations] 24.982.405(a) require public
housing authorities to perform unit inspections before the initial move-in and at least annually.
The authority must inspect the unit leased to a family before the term of the lease, at least
annually during assisted occupancy, and at other times as needed to determine whether the unit
meets housing quality standards.

HUD’s Housing Choice Voucher Program Guidebook 7420.10, chapter 10, pages 32 through 33,
states that quality control reinspections should be conducted by staff trained in the public
housing agency’s inspection standards, and staff should receive the same guidance as other
public housing agency inspectors on inspection policies and procedures. In addition to
monitoring section eight management assessment program compliance, quality control
inspections provide feedback on inspectors’ work, which can be used to determine whether


                                                31
individual performance or general housing quality standards training issues need to be addressed.
For section eight management assessment program purposes, a housing quality standards
deficiency found at the time of the quality control reinspection represents a failed quality control
inspection. When rating an individual inspector’s performance, the quality control inspector
should take into account whether the failed item occurred since the previous inspector was on
site. Often the tenant can describe when the deficiency occurred and will be helpful in making
this determination. Deficiencies that occurred after the original inspection should not be held
against the inspector’s performance record. The public housing agency should maintain a quality
control tracking system for each program year, which indicates the address of the units; date of
original inspection and inspector; date of the quality control inspection; and location of the unit
by neighborhood, zip code, and census tract.

Section 12 of the Commission’s program administrative plan states that the Commission will
inspect all units to ensure that they meet housing quality standards. No unit will be initially
placed on the Section 8 existing program unless housing quality standards are met. Units will be
inspected at least annually, and at other times as needed, to determine whether the units meet
housing quality standards. Section 12.5 includes the Commission’s HUD-approved exceptions
to housing quality standards.

Finding 2
HUD’s regulations at 24 CFR [Code of Federal Regulations] 982.54 require authorities to adopt
a written administrative plan that establishes local policies for the administration of the program
in accordance with HUD requirements. The administrative plan states the authorities’ policies
on matters for which authorities have discretion to establish local policies. The authorities must
administer the program in accordance with their administrative plan.

HUD’s regulations at 24 CFR [Code of Federal Regulations] 982.404 require owners of program
units to maintain the units in accordance with HUD’s housing quality standards. If the owner
fails to maintain the dwelling unit in accordance with HUD’s housing quality standards, the
authority must take prompt and vigorous action to enforce the owner’s obligations. The
authority’s remedies for such breach of the housing quality standards include termination,
suspension, or reduction in housing assistance payments and termination of the housing
assistance payments contract. The authority must not make any housing assistance payments for
a dwelling unit that fails to meet the housing quality standards unless the owner corrects the
defect within the period specified by the authority and the authority verifies the correction. If a
defect is life threatening, the owner must correct the defect within 24 hours. For other defects,
the owner must correct them within 30 calendar days.

HUD’s Housing Choice Voucher Program Guidebook 7420.10, chapter 10, section 10.6, pages
27 through 28, states that the public housing agency must abate housing assistance payments to
the owner for failure to correct a housing quality standards violation under the following
circumstances: an emergency (life-threatening) violation is not corrected within 24 hours of
inspection, and the public housing agency did not extend the time for compliance or a routine
violation is not corrected within 30 days of the inspection and the public housing agency did not
extend the time for compliance. Abatements must begin on the first of the month following the
failure to comply.



                                                32
The public housing agency must terminate the housing assistance payments contract if repairs
are not made. The public housing agency must decide how long abatement will continue before
contract termination. The public housing agency should not terminate the contract until the
family finds another unit provided the family does so in a reasonable time. The public housing
agency must terminate program assistance to families who fail to correct housing quality
standards deficiencies that they caused. The public housing agency should notify the owner of
its intent to terminate the family’s program assistance so the owner can begin eviction
procedures. The public housing agency should continue to pay the owner until the eviction is
completed.

The inspector conducts the unit inspection. Each item on the inspection checklist must receive a
rating of pass, fail, or inconclusive. The inspector should make clear notes about the nature of all
failed and inconclusive items. For the unit to receive a pass rating, no failed or inconclusive
items can be noted on the inspection checklist. Written notification to the owner and/or
household is required for all failed or inconclusive items. The notice must include a list of
housing quality standards deficiencies and the correcting deadline. Reinspection or public
housing agency verification that failed and/or inconclusive items are corrected is required. Any
time an inspector is present in an assisted unit, the inspector has the right to conduct a full
inspection. If new housing quality standards items are discovered during a reinspection, the new
items must be noted, and the owner and/or household must be notified to correct the deficiencies.
Owners are responsible to the public housing agency for compliance with all housing quality
standards items except those specifically assigned to households.

Section 10.9, pages 33 through 34, further states that for housing quality standards deficiencies
that are the owner’s responsibility and are not corrected within the prescribed timeframes, the
public housing agency must abate housing assistance payments beginning no later than the first
of the month following expiration of the public housing agency violation notice. Violation
notices should contain language regarding abatement of payment for owner failure to make
corrections. For housing quality standards deficiencies that are the responsibility of the tenant
and are not corrected within the prescribed timeframes, the public housing agency must take
prompt and vigorous action to enforce family obligations following program requirements.

The public housing agency should establish the definition of deficiencies that will be considered
emergency fail items and should put a procedure in place to record, track, and close violations
within 24 hours of inspection or take abatement action.

Promptly following inspection, public housing agencies should issue violations letters for
emergency failures to the responsible party. This may be done by fax, courier, overnight mail, or
regular mail and should be followed by personal contact. Public housing agencies should have a
system to cover these circumstances on weekends and holidays when staff is not readily
available to conduct reinspections. Potential approaches include phone calls to the household or
owner within the 24-hour period to verbally determine compliance, followed by a site
reinspection the next business day; rotation of inspectors to cover holiday and Saturday
reinspections; receipt by fax of owner/household certifications that corrections are made within
the required timeframe; or telephone confirmation to a voice mail system followed by a
reinspection on the next business day. Promptly following inspection, notices to correct routine
violations should be issued and should state a date for compliance that allows time for
corrections to be made and a reinspection to be conducted within the 30-day timeframe. Letters



                                                33
of violation should clearly state that failure to gain entry to the unit or failure to comply will
result in abatement of assistance payments on the first of the month following the correction
period.

Inspectors must identify the party responsible for each housing quality standards violation listed
on the inspection instrument so that proper notice can be sent to the owner and/or household for
the appropriate items. This precludes abatement of owner rent when the violation(s) is the
responsibility of the household. Housing assistance payments are never abated for household
deficiencies.

The public housing agency must have a system to promptly identify units for which deficiencies
have not been corrected within the required timeframe in order to indicate abatement of rent
and/or termination of assistance to the family. Termination of assistance procedures should be
stated in the public housing agency administrative plan. To meet the section eight management
assessment program requirement to “take prompt and vigorous action” for household violations
the public housing agency should strictly follow these procedures when the family fails to correct
housing quality standards violations.

Public housing agencies should monitor housing quality standards enforcement on a regular basis
(daily, weekly, or monthly) to guarantee that reinspections occur within the proper timeframes.
Public housing agencies may not penalize owners for public housing agency failure to conduct
the reinspections on time. However, if owners fail to comply or allow entry into the unit, the
public housing agency should notify the owner that it will begin abatement in 30 days. For
fairness and consistency, public housing agencies should have an established policy and
procedure for receiving and processing requests for housing quality standards compliance,
including the conditions under which extensions will be granted. It is not advisable to grant
extensions without just cause or to grant verbal extensions; this can be construed as
circumvention of the section eight management assessment program requirement.

The public housing agency must have a system to record the results of section eight management
assessment program quality control reviews of inspections. At a minimum, the system should
provide the address of the unit, date of the original failed inspection, responsibility for the
deficiency (household or owner), date of the reinspection, result(s) of the reinspection, date the
owner was notified of abatement, actual date of the abatement, any extensions to that date, and
initiation and status of the termination of tenancy. The public housing agency should regularly
monitor the tracking system to assure compliance.

Chapter 12 of the Commission’s program administrative plan, dated March 2006, states that if
the family misses the scheduled inspection and fails to reschedule the inspection, the
Commission will only schedule one more inspection. If the family misses two inspections, the
Commission will consider the family to have violated a family obligation and its assistance will
be terminated.

Section 12.2, paragraph A, part 2, states that if the owner fails to maintain the dwelling unit in
accordance with housing quality standards, the Commission will take prompt and vigorous
action to enforce the owner obligations. The Commission’s remedies for such breach of the
housing quality standards include termination, suspension or reduction of housing assistance
payments and termination of the housing assistance payments contract. Part 3 states that the



                                                  34
Commission will not make any housing assistance payments for a dwelling unit that fails to meet
housing quality standards, unless the owner corrects the defect within the period specified by the
Commission and the Commission verifies the correction. If a defect is life threatening, the
owner must correct the defect within 24 hours. For other defects the owner must correct the
defect within 30 calendar days (or any Commission-approved extension). If the required repair
is not made in a timely manner, the rent shall be abated beginning with the next rent check. If
two consecutive checks are abated, the assistance shall be cancelled. Part 4 states that the owner
is not responsible for a breach of the housing quality standards that is not caused by the owner,
and for which the family is responsible. Further, the Commission may terminate assistance to a
family because of the housing quality standards breach caused by the family.

Section 12.5 of the Commission’s program administrative plan indicates the Commission-
imposed timeframes for correcting housing quality standards failed items. Emergency repair
items must be corrected within 24 hours. Repair of refrigerators, range and oven, or a major
plumbing fixture supplied by the owner must be abated within 72 hours. Section 12.7 lists
examples of emergency items that need to be abated within 24 hours.

Section 12.8 states that when a unit fails to meet housing quality standards and the owner has
been given an opportunity to correct the deficiencies but has failed to do so within in the required
timeframe, the rent for the dwelling unit will be abated as of the first day of the next month. If
the corrections of deficiencies are not made, the abatement will continue until the housing
assistance payments contract is terminated. When the deficiencies are corrected (within the 30-
day timeframe), the Commission will end the abatement the day the unit passes inspection. Rent
will resume the day the unit passes inspection and be paid the first day of the next month. For
participant-caused housing quality standards deficiencies, the owner will not be held
accountable, and the rent will not be abated. The participant is held to the same standard and
timeframes for correction of deficiencies as owners. If repairs are not completed by the deadline,
the Commission will send a notice of termination to both the participant and the owner. The
participant will be given the opportunity to request an informal hearing. Housing assistance
payments contracts will be terminated after giving the owner 30 calendar days’ notice from the
first day of a month. The termination notice will be sent with the notice of abatement.
Termination will end any abatement action.

Finding 3

HUD’s regulations at 24 CFR [Code of Federal Regulations] 982.507(a) and (b) state that the
housing authority may not approve a lease until the authority determines that the initial rent to
owner is a reasonable rent. The housing authority must determine whether the rent to owner is a
reasonable rent in comparison to rent for other comparable unassisted units. To make this
determination, the public housing agency must consider the location, quality, size, unit type, and
age of the contract unit and any amenities, housing services, maintenance, and utilities to be
provided by the owner in accordance with the lease.

HUD’s Housing Choice Voucher Program Guidebook 7420.10, chapter 9, section 9.2, states, “In
each case where the public housing agency is required to determine rent reasonableness, it must
document its decision and the basis for it (i.e., information on the unassisted units compared) in
the household’s file. This documentation should identify who conducted the rent reasonableness
determination and when.”



                                                35
HUD’s Housing Choice Voucher Program Guidebook 7420.10, chapter 9, section 9.4, states, “In
order to compare program units to market units, it is necessary to collect comparable information
on the program units.”

Section 6.5 of the Commission’s program administrative plan, dated March 2006, states that the
Commission will approve a lease if the rent to owner is reasonable.

Section 11.3 of the Commission’s program administrative plan, dated March 2006, states that in
making a rent reasonableness determination, the Commission will compare the rent for the unit
to the rent of comparable units in the same or comparable neighborhoods. The Commission will
consider the location, type, quality, size, number of bedrooms, age, amenities, housing services,
maintenance and utilities of the unit and the comparable units. The results of this determination
shall be documented in the participant’s file.

Finding 4
HUD’s regulations at 24 CFR [Code of Federal Regulations] 5.240(c) state that public housing
agencies must verify the accuracy of the income information received from a household and
change the amount of the total tenant payment, tenant rent, or program housing assistance
payment or terminate assistance, as appropriate, based on such information.

Section 5.3 of HUD’s Housing Choice Voucher Program Guidebook 7420.10 requires authorities
to recalculate households’ annual income at least annually. Section 12.3 states that it is
important that the public housing agency has tracking and monitoring procedures and systems in
place to ensure that the required reexaminations for each assisted family are initiated and
completed on time. Section 12.6 states that public housing agencies must develop their own
interim reporting requirements, which must be stated in the administrative plan and the briefing
materials. The policy must include clear guidance on when (how soon after the change occurs)
and under what circumstances the family must report a change in family income. Agencies must
apply interim reporting rules uniformly to all families. Verification rules are the same as those
used for annual reexaminations, except only those factors that changed will need to be verified at
an interim reexamination. A family’s failure to abide by an agency’s interim reporting
requirements is cause for termination of assistance.
As of June 2005, section 10.1 of the Commission’s program administrative plan states that the
Commission will use five verification methods in the following order: (1) up-front income
verifications, (2) third-party written verifications, (3) third-party oral verifications, (4) household
documentation reviews, and (5) self-certifications and self-declarations. The Commission allows
three weeks for the return of third-party written verifications before obtaining third-party oral
verifications and five business days to obtain third-party oral verifications before requesting
household documentation. The Commission will maintain income documentation in the
household files.

Section 14.2 states that families will be required to report any increase of $50 or more per week
in income or decreases in allowable expenses between annual reexaminations. As of June 2005,
section 14.3 states that if the Commission makes a mistake in calculating a household’s rent
contribution and overcharges the household, the household shall receive a refund for the amount
of the mistake going back a maximum of 12 months. The Commission shall refund the



                                                  36
household as soon as practical. However, if the household owes the Commission money, it will
first offset the debt as much as possible.

Finding 5
The Commission’s procurement policy obtained from its 2000 agency plan indicated the
following:

Section 1.4 – Executive Director’s Responsibilities
The contracting officer shall administer all procurement transactions. The contracting officer
shall be the executive director or any other individual so designated by the executive director.
Any delegations of contracting authority must be documented in writing. Contract award is
made to the offeror whose proposal offers the greatest value to the Commission, considering
price, technical, and other factors as specified in the solicitation (for contracts awarded based on
competitive proposals); unsuccessful firms are notified within 10 days (or other period required
by state or local law) after contract award.

Paragraph B states that contracts and modifications are in writing and clearly specify the desired
supplies, services, or construction, and are supported by sufficient documentation regarding the
history of the procurement, including as a minimum the method of procurement chosen, the
selection of the contract type, the rationale for selecting or rejecting offers, and the basis for the
contract price and that contracts and modifications are awarded only by the Commission’s
employees designated in writing as having such authority.

Paragraph C states that for procurements other than small purchases, public notice is given of
each upcoming procurement, an adequate period is provided for preparation and submission of
bids or proposals and notice of contract awards is made available to the public.

Paragraph E states that an independent cost estimate is prepared before solicitation is issued and
is appropriately safeguarded for each procurement above the small purchase limitation, and a
cost or price analysis is conducted of the responses received for all procurements.

Section 1.6 – Qualified Bidders List
Interested businesses shall be given an opportunity to be included on a qualified bidder’s list.
Any prequalified lists of persons, firms, or products, which are used in the procurement of
supplies and services, shall be kept current and shall include enough qualified sources to ensure
competition. Solicitation mailing lists of potential contractors shall include but not be limited to
such prequalified suppliers.

Section 2.3 – Competitive Proposals
Paragraph A, Conditions for Use states that competitive proposals may be used if there is an
adequate method of evaluating technical proposals. An adequate number of qualified sources
shall be solicited (normally, at least three).

Paragraph B, Solicitation states that the request for proposals shall clearly identify the relative
importance of price and other evaluation factors and subfactors, including the weight given to
each technical factor and subfactor. A mechanism for fairly and thoroughly evaluating the



                                                  37
technical and price proposals shall be established before the solicitation is issued. The proposals
shall be evaluated only on the criteria stated in the request for proposals.

Section 2.5 – Cost and Price Analysis
Paragraph A states that some form of cost or price analysis shall be performed for all
procurement actions, including contract modifications, using the procedures described in HUD
Handbook 2210.18. The degree of analysis shall depend on the facts surrounding each
procurement.

Paragraph B, Submission of Cost or Pricing Information, states that if the procurement is deemed
necessary by the Commission (e.g., when contracting for professional, consulting, or
architect/engineer services) the offeror shall be required to submit

               • A cost breakdown showing projected costs and profit,
               • Commercial pricing and sales information, sufficient to enable the
                 Commission to verify the reasonableness of the proposed price as a catalog or
                 market price of a commercial product sold in substantial quantities to the
                 general public, or
               • Documentation showing that the offered price is set by law or regulation.

Paragraph C, Cost Analysis states that cost analysis shall be performed if an offeror/contract is
required to submit a cost breakdown as part of its proposal.

Section 3.1 - Contract Types
A time and material contract may be used only if a written determination is made that no other
contract type is suitable and the contract includes a ceiling price that the contractor exceeds at its
own risk. A cost reimbursement contract shall not be used unless it is likely to be less costly or it
is impracticable to satisfy the Commission’s needs; otherwise, the proposed contractor’s
accounting system is adequate to allocate costs in accordance with applicable cost principles (for
commercial firms, see HUD Handbook 2210.18), and the contract is paid only allowable costs.

Section 3.3 – Contract Clauses
In addition to containing a clause identifying the contract type, all contracts shall include any
clauses required by federal statutes, executive orders, and their implementing regulations as
provided in 24 CFR [Code of Federal Regulations] 85.36(i). The section included 15 clauses in
the procurement policy.

Section 3.4 – Contract Administration
A contract administration system designed to ensure that contractors perform in accordance with
their contracts shall be maintained. The system shall include procedures for inspection of
supplies, services, or construction, as well as monitoring contractor performance, status reporting
on construction contracts, and similar matters.




                                                 38
Appendix D

         UNITS WITH PREEXISTING HEALTH AND SAFETY
                        VIOLATIONS
                                                                                     Improper
                  Housing                                                             housing        Improper
    Household    assistance       Last unit                                          assistance    administrative
     number      payment         inspection          From               To            payment           fee
      1871         $791        Jan. 8, 2007    Feb. 1, 2007       Mar. 20, 2007         $1,301                $73
       228          895       Dec. 19, 2006    Feb. 1, 2007       Mar. 21, 2007          1,501                 75
      2471          590       Feb. 1, 2007     Mar. 1, 2007       Mar. 20, 2007            381                 29
      8001          816       Feb. 27, 2007    Mar. 1, 2007       Mar. 21, 2007            553                 30
      1348          502       Dec. 18, 2006    Feb. 1, 2007       Mar. 27, 2007            939                 87
      1452          472        Jan. 8, 2007    Mar. 1, 2007       Mar. 22, 2007            335                 33
      2488          449       Dec. 4, 2006     Feb. 1, 2007       Mar. 27, 2007            840                 84
      26011         255       Jan. 26, 2007    Feb. 1, 2007       Mar. 23, 2007            444                 78
      33481         575       Jan. 23, 2007    Feb. 1, 2007       Mar. 21, 2007            965                 75
      33821         747        Jan. 2, 2007    Feb. 1, 2007       Mar. 21, 2007          1,253                 78
      4761          759       Dec. 6, 2006     Feb. 1, 2007       Mar. 19, 2007          1,224                 72
      4768          637       Dec. 4, 2006     Feb. 1, 2007       Mar. 27, 2007          1,192                 84
      47821         664        Jan. 2, 2007    Feb. 1, 2007       Mar. 27, 2007          1,242                 84
      48231         758        Jan. 4, 2007    Feb. 1, 2007       Mar. 27, 2007          1,418                 87
      5413          769       Dec. 8, 2006     Feb. 1, 2007       Mar. 23, 2007          1,340                 78
      5480          871        Jan. 2, 2007    Mar. 1, 2007       Mar. 21, 2007            590                 31
      54841         561       Jan. 11, 2007    Feb. 1, 2007       Mar. 20, 2007            923                 74
      5486          351       Feb. 1, 2007           --                 --                   --                 --
      55091         566        Jan. 2, 2007    Feb. 1, 2007       Mar. 21, 2007            949                 78
      55221         530       Feb. 7, 2007     Mar. 1, 2007       Mar. 29, 2007            496                 42
      5535          681       Mar. 1, 2007           --                 --                   --                 --
      57021         683       Feb. 13, 2007    Mar. 1, 2007       Mar. 21, 2007            463                 30
      68212         697       Feb. 1, 2007     Feb. 1, 2007       Mar. 20, 2007          1,147                 74
      64331         749       Dec. 7, 2006      Jan. 1, 2007      Mar. 27, 2007          2,150                128
      64411         617       Dec. 13, 2006     Jan. 1, 2007      Mar. 19, 2007          1,612                117
      6461          650       Jan. 11, 2007    Mar. 1, 2007       Mar. 22, 2007            461                 32
      6476          470        Jan. 5, 2007    Mar. 1, 2007       Mar. 23, 2007            349                 33
      64921         682       Feb. 6, 2007     Mar. 1, 2007       Mar. 29, 2007            638                 42
      6524          173       Feb. 2, 2007           --                 --                   --                 --
      67242         678       Dec. 4, 2006     Dec. 8, 2006       Mar. 22, 2007          2,379                163
      67532         401       Dec. 18, 2006    Dec. 19, 2006      Mar. 22, 2007          1,261                140
      67692         689        Jan. 4, 2007     Jan 4, 2007       Mar. 22, 2007          1,821                118
      67841         614       Jan. 11, 2007    Feb. 1, 2007       Mar. 20, 2007          1,010                 74
      67992         620       Dec. 21, 2006    Dec. 21, 2006      Mar. 22, 2007          1,907                137
      68192         576       Jan. 29, 2007    Jan. 30, 2007      Mar. 29, 2007          1,153                 93
      68272         353       Feb. 8, 2007     Feb. 9, 2007       Mar. 20, 2007            463                 61
      68312         557       Feb. 2, 2007     Feb. 2, 2007       Mar. 19, 2007            575                 48
      68572         506       Feb. 15, 2007 Feb. 17, 2007         Mar. 27, 2007            643                 57
                                        Totals                                         $35,918             $2,619



1
  The unit contained emergency health and safety violations requiring correction within 24 hours; therefore, the
housing assistance payment is considered eligible the first of the month following the failure to comply.
2
  The last unit inspection was an initial inspection; therefore, the housing assistance payment should not have been
paid until the unit met HUD’s housing quality standards.



                                                         39
